                                MEMORANDUM

                                    October 3 1,2007

TO:            Chairman Cox

FROM:          Nelson Egbert   @
SUBJECT:       Semi-annual report

Attached is the Office of Inspector General's semi-annual report for the second half of
fiscal year 2007.


Attachment

cc:    Diego Ruiz
              Securities and Exchange
                  Commission
                       Office of Inspector General

                          Executive Summary
During this period (April 1, 2007 to September 30, 2007), the Office of Inspector General
(OIG or Office) issued one audit report, two inspection report, and three investigative
memoranda on management issues. The Office also completed one special project and one
survey.
The Office reviewed contract ratifications, investment company filing initiatives, the
electronic documents program, an interactive data initiative, information security under the
Federal Information Security Management Act (FISMA), verification of bar membership,
ethics training and exit procedures for examiners, and document requests to registrants. The
Audit Program section below provides more details on our completed and ongoing work.
The Office’s investigative program focused on investigating allegations of misconduct by
Commission staff, including allegations of conflict of interest, misuse of official time and
computer resources, investigative misconduct, retaliatory termination, perjury and false
statements, and time and attendance abuse. We closed seven investigations during the
period, referring one subject to Commission management and three subjects to the
Department of Justice (which declined prosecution). Sixteen investigations remained
pending at the end of the period. The Investigative Program section below contains
additional information concerning the investigative work performed and describes the
significant cases closed during the period.
We are removing one previously reported significant problem (IT management) and
retaining another previously reported significant problem (staff performance management).
Our Office has reported information technology management as a significant problem since
1996. Over the last decade, the Commission has implemented numerous corrective actions to
address the problem. In our judgment, IT management as a whole is no longer a significant
problem, although it remains a management challenge.
We reported the Commission’s management of staff performance as a significant problem in
our previous semi-annual report. During this period, Commission management took several
steps towards implementation of a new, five-level performance management program, and
further steps are planned. These steps are described below in the Significant Problems
section.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.
                                                                                 PAGE 2



                                           Audit Program
The reviews completed during this period are summarized below, based on the type of
review (i.e., audit, inspection, survey, special project, investigative memorandum). A
summary of our ongoing work follows the description of completed work.


AUDIT


Investment Company Filing Initiatives (No. 421)
We reviewed whether the Division of Investment Management (IM) had identified its goals
for improving mutual fund disclosure, and the extent to which it was achieving these goals.
We found that IM had identified goals and was making progress towards the goals. We
recommended that IM identify outcome-based performance indicators for its disclosure
reform initiatives.


INSPECTION


Electronic Documents Program (No. 428)
We performed a follow-up review of a program to electronically image the Division of
Enforcement’s evidentiary documents.
We found that significant improvements had been made to address technical, quality
control, and staffing issues identified in our prior review (Memorandum No. 38, issued
September 13, 2004). We recommended additional improvements, including providing
more guidance and training to users, enhanced monitoring of contractor performance,
considering designation of a program manager, and ensuring that background
investigations are performed on contractor employees and that contractors sign non
disclosure agreements.
Contract Ratifications (No. 430)
We reviewed contract ratifications (management approval of unauthorized commitments of
funds) to identify additional controls needed to prevent such ratifications.
We found that Commission management had already made considerable effort to increase
awareness of this issue and to discourage unauthorized commitments. We made several
recommendations to enhance this effort, including (1) strengthening existing guidance, (2)
examining contracting in the regional offices, (3) adopting best practices, and (4)
implementing additional controls to increase accountability for unauthorized commitments.




S E C O I G S E M I - AN N U A L R E P O R T                             OCTOBER 31,
2007
                                                                                 PAGE 3


SURVEY

Interactive Data Initiative Survey (No. 429)
We performed a survey of the Commission’s initiative to assess the benefits of interactive
data and its potential for improving the timeliness and accuracy of financial disclosure and
analysis of Commission filings. We gathered background information on the project for
audit planning and identified possible risks to the project.
Since this was a survey, we did not issue a report. Instead, we briefed management on the
survey results, including the identified risks.


SPECIAL PROJECT


FISMA 2007
We hired a contractor to assist us in evaluating Commission compliance with the Federal
Information Security Management Act (FISMA). Rather than issuing a report, we
completed a questionnaire required by the Office of Management and Budget.
Consistent with our FISMA work in 2006, we found that the Commission has continued to
make progress in developing a mature information security program, and has addressed
many security vulnerabilities identified in prior assessments.


INVESTIGATIVE MEMORANDA

Verification of Bar Membership (G-454)
During an investigation, we learned that bar membership is not routinely verified for new
hire attorneys, but only for law clerks who pass the bar and are converted to attorney
positions.
We recommended that the Office of Human Resources improve its controls to ensure bar
membership is verified before a new attorney begins work at the Commission.
Examiner Ethics Training and Exit Procedures (G-460).
During an investigation, we learned that some examiners may not have received ethics
training, including training on the rules for negotiating and accepting employment with the
Self-Regulatory Organizations (SRO).
We recommended that the Offices of Compliance Inspections and Examinations (OCIE) and
the General Counsel provide appropriate training to examiners and to ethics liaisons who
advise examiners. We also recommended that OCIE revise the exit interview worksheet for
examiners to cover acceptance of SRO employment.

S E C O I G S E M I - AN N U A L R E P O R T                             OCTOBER 31,
2007
                                                                                   PAGE 4




Document Requests to Registrants (G-449)
During an investigation, we learned that a regional office did not have written guidance for
issuing letters to registrants when the registrants fail to produce documents requested
during examinations. The regional office issued a “failure to produce” letter to a registrant
that later was rescinded. The letter mentioned the possibility of a referral to the Division of
Enforcement.
We recommended that the Office of Compliance Inspections and Examinations (OCIE) issue
guidance on informing registrants of a possible or actual referral to Enforcement. We also
recommended that the guidance be included in OCIE’s training for examiners.


ONGOING WORK
At the close of this semi-annual period (September 30, 2007), the Office had ongoing
reviews of service level agreements in an IT contract, receiver oversight, referrals from the
Division of Corporation Finance to the Division of Enforcement, background investigations,
the internal website of the Division of Investment Management, a physical security issue,
and Self-Regulatory Organization rulemaking.



                                    Investigative Program
Seven investigations were closed during the period. We referred three subjects to the
Department of Justice, which declined prosecution. One subject was referred to
Commission management, which decided to take no disciplinary action. One subject of an
investigation closed during the period resigned. One subject referred during a prior period
was suspended. Sixteen investigations were pending at the end of the period.
At our request, investigative staff from the Office of the Inspector General of the Federal
Deposit Insurance Corporation (FDIC OIG) conducted one of the investigations closed
during the period, due to our need for additional investigative resources. We appreciate the
assistance provided by the FDIC OIG.
The most significant cases closed during the period are described below.


CONFLICT OF INTEREST
Two investigations closed during the period involved allegations of conflict of interest. In
one matter, an Office investigation developed evidence that a Commission examiner
negotiated and accepted employment with an entity that had a financial interest in an
examination in which the examiner personally and substantially participated while
negotiating and accepting employment. We found no evidence, however, that the examiner
gave any favorable treatment to the entity in the examination. We referred the matter to
the Department of Justice, which declined prosecution. As discussed in the Audit Program
S E C O I G S E M I - AN N U A L R E P O R T                               OCTOBER 31,
2007
                                                                               PAGE 5


section, we made recommendations to management for improvements in examiner ethics
training and exit procedures.
In the other matter, the FDIC OIG at our request investigated allegations that a
Commission employee secretly assisted a private company with its SEC filings and had
been promised a future position on the company’s board and stock. The FDIC OIG found
that the employee had received and declined an employment offer, but found insufficient
evidence that the employee improperly assisted the company or that the company had
gained any unfair advantage. The Department of Justice declined to open a case in the
matter.


MISUSE OF COMPUTER RESOURCES
An Office investigation developed evidence that a staff member had used his Commission
computer and official time to access numerous Internet websites containing pornography.
We also found evidence that the employee had downloaded large quantities of pornographic
images to his Commission computer and saved many of these images to CDs and/or DVDs.
The employee resigned prior to our completion of the investigation. We provided selected
images to the Federal Bureau of Investigation’s Innocent Images National Initiative for
analysis as possible child pornography. After analyzing the images, the FBI declined to
pursue the matter.


INVESTIGATIVE MISCONDUCT
The Office conducted two investigations into allegations of misconduct during Commission
enforcement investigations. In one of these matters, it was alleged that a Commission
attorney misled the Commission regarding the facts of an investigation and improperly
attempted to influence the testimony of witnesses. The other matter involved allegations
that a Commission attorney had subpoenaed an individual’s financial records in retaliation
for his prior complaint about the conduct of a Commission examiner, and that the attorney
filed false statements in federal court in support of that subpoena. In both matters, we
found that the evidence did not substantiate the allegations.




S E C O I G S E M I - AN N U A L R E P O R T                            OCTOBER 31,
2007
                                                                                 PAGE 6



                                     Significant Problems
No new significant problems were identified during the reporting period.



           Significant Problems Identified Previously

INFORMATION TECHNOLOGY MANAGEMENT
Since April 1996, we have reported information technology (IT) management as a
significant problem based on weaknesses identified by several audits, investigations, and
management studies. Significant IT management weaknesses included information
systems security, IT capital investment decision-making, administration of IT contracts, IT
project management, enterprise architecture management, strategic management of IT
human capital, and management of software licenses.
Since this problem was identified, the Commission has taken numerous actions to improve
IT management, as reflected in our prior semi-annual reports. We no longer consider IT
management taken as a whole to be a significant problem, although it remains a
management challenge (in view of IT’s significance and the need for further improvements).


STAFF PERFORMANCE MANAGEMENT
In the prior semi-annual period, the Office identified a significant problem with the
Commission’s staff performance management system. The Commission plans to adopt a
new performance management program to address the deficiencies, starting with managers
in fiscal year 2008 and continuing with staff in fiscal year 2009.
The Office of Human Resources (OHR) indicated that it is developing a new, five level
performance management program for the Commission. Among other steps, it has piloted
the new program with all OHR staff, developed training materials, conducted two pilot
training sessions for managers, and drafted a performance management policy. Planned
additional steps include completing development of web-based training, developing
performance management templates for offices and divisions, and building an
infrastructure for training employees.




S E C O I G S E M I - AN N U A L R E P O R T                               OCTOBER 31,
2007
                                                                                  PAGE 7



                                    Access to Information
The Office of Inspector General has received access to all information required to carry out
its activities. No reports to the Chairman, concerning refusal of such information, were
made during the period.



                                               Other Matters

EXTERNAL COORDINATION
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Acting Inspector General attends ECIE meetings and is a member
of its Financial Institutions Regulatory Committee.
The Deputy Inspector General is a member of the Federal Audit Executive Council (FAEC).
The FAEC considers audit issues relevant to the Inspector General community.
The Counsel to the Inspector General is a Vice-Chair of the PCIE Council of Counsels and
the Associate Counsels are members of the Council. The Council considers legal issues
relevant to the Inspector General community.


RETIREMENT OF INSPECTOR GENERAL
The Office’s Inspector General, Walter Stachnik, retired during this semi-annual period.
Mr. Stachnik served as the Office’s Inspector General since the Office was established in
March 1989.
As of the date of this report, a permanent replacement for Mr. Stachnik had not yet been
appointed. The Deputy IG is currently serving as the Acting Inspector General.




S E C O I G S E M I - AN N U A L R E P O R T                              OCTOBER 31,
2007
                                                                       PAGE 8




                                      Questioned Costs

                                                             DOLLAR VALUE
                                                            (IN THOUSANDS)


                                                         UNSUPPORTED     QUESTIONED
                                               NUMBER       COSTS          COSTS
A          For which no management decision
           has been made by the
           commencement of the reporting         0            0                 0
           period

B          Which were issued during the
           reporting period
                                                 0            0                 0

           Subtotals (A+B)                       0            0                 0

C          For which a management decision       0            0                 0
           was made during the reporting
           period

    (i)    Dollar value of disallowed costs      0            0                 0

    (ii)   Dollar value of costs not             0           0                  0
           disallowed

D          For which no management               0           0                  0
           decision has been made by the end
           of the period

           Reports for which no management       0           0                  0
           decision was made within six
           months of issuance




S E C O I G S E M I - AN N U A L R E P O R T                     OCTOBER 31,
2007
                                                                        PAGE 9




              Recommendations That Funds Be Put To
                        Better Use
                                                              DOLLAR VALUE
                                                    NUMBER   (IN THOUSANDS)
A	           For which no management decision
             has been made by the commencement
                                                      0             0
             of the reporting period
B	           Which were issued during the
             reporting period
                                                       0            0


             Subtotals (A+B)            	              0            0
C	           For which a management decision          0             0
             was made during the period
      (i) 	 Dollar value of recommendations that      0             0            

            were agreed to by management 

         -	 Based on proposed management              0             0
            action
         -	 Based on proposed legislative action      0             0
      (ii) 	 Dollar value of recommendations that     0             0            

             were not agreed to by management 

D	           For which no management decision
             has been made by the end of the
                                                      0             0
             reporting period
             Reports for which no management
             decision was made within six months
                                                      0             0
             of issuance




S E C O I G S E M I - AN N U A L R E P O R T   	                OCTOBER 31,
2007
                                                                              PAGE 10




           Reports with No Management Decisions
Management decisions have been made on all audit reports issued before the beginning of
this reporting period (April 1, 2007).



                     Revised Management Decisions
No management decisions were revised during the period.



          Agreement with Significant Management 

                        Decisions

The Office of Inspector General agrees with all significant management decisions regarding
audit recommendations.




S E C O I G S E M I - AN N U A L R E P O R T                           OCTOBER 31,
2007
                       MANAGEMENT RESPONSE OF

               THE SECURITIES AND EXCHANGE COMMISSION 

     ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL 

         FOR THE PERIOD APRIL 1, 2007 THROUGH SEPTEMBER 30, 2007 



Introduction

The Semiannual Report of the Inspector General of the Securities and Exchange Commission
(SEC) was submitted to the Chairman on October 31, 2007 as required by the Inspector General
Act of 1978, as amended. The report has been reviewed by a member of the Executive Staff, as
well as the Executive Director, General Counsel, and Director of the Division of Enforcement.
The Management Response is based on their views and consultation with the Chairman.

The Management Response is divided into four sections to reflect the specific requirements
listed in Section 5(b) of the Inspector General Act of 1978, as amended.

                                        Section I                                                  

                   Comments Keyed to Significant Sections of the IG Report 


A.   Audit Program

     During the reporting period, the Office of Inspector General (OIG) issued one audit report,
     two inspection reports, and three investigative memoranda on management issues. The
     Office also completed one special project and one survey. Management generally
     concurred with the findings and recommendations in the OIG’s reports.

     In addition to audits performed by the OIG, the Government Accountability Office (GAO)
     actively reviewed program and administrative functions of the SEC. A complete listing of
     all GAO audit activity involving the SEC is attached as Appendix A.

B.   Response to Significant Problems

     No new significant problems were identified.

C.   Response to Significant Problems Previously Identified

     Performance Management Program

     The OIG identified the SEC’s performance management system as a significant problem
     previously reported. The SEC is currently engaged in an initiative to implement a
     completely new performance management process. This initiative began in 2005 when the
     pay and benefits agreement with the National Treasury Employees Union (NTEU) expired.
     The SEC and the NTEU negotiated on this and other issues throughout 2005 and 2006 and
     were unable to reach consensus on the pay for performance elements of the performance
     management process. The parties went to mediation and ultimately, a ruling from the
     Federal Services Impasse Panel (FSIP) issued in October 2006 allowed the SEC to begin
     implementing the new system.

     In designing the new system, the SEC researched all available guidance regarding
     performance management system design from the Office of Personnel Management
     (OPM), Office of Management and Budget, and Government Accountability Office. The
     SEC also completed an extensive review of best practices in both the government and
     private sectors. The existing performance management system was submitted to OPM for
     review using the Performance Appraisal Assessment Tool (PAAT) to identify current
     weaknesses and to plan improvements. The SEC has also created a joint committee with
     NTEU to make recommendations. After the design of the new system was completed, the
     design was submitted to OPM for the PAAT review to ensure design effectiveness.

     The new system has three major components: (1) an objective component where specific
     measurable objectives for each individual are established at the beginning of the
     performance cycle; (2) a competency component where the underlying knowledge, skills,
     and behaviors needed to accomplish performance objectives are evaluated; and (3) a
     development component where employees and managers identify career development
     opportunities. The timing of the performance cycle also will be adjusted in the new system
     to align with the fiscal year.

     In preparation for implementing this new system, the SEC piloted the system for one year
     in the agency’s Office of Human Resources (OHR). This pilot program included periodic
     focus group discussions with a third-party contractor, after the initial training, at the six-
     month point and is scheduled to be concluded with a final focus group discussion when the
     performance cycle ends at the end of the fiscal year. During these focus groups, select
     employees were asked to provide feedback on the effectiveness of the new system. At the
     six-month point, adjustments were made to the system based on this feedback.

     In preparation for the agency-wide rollout, two groups of senior executives and managers
     were presented with the training associated with the system. Improvement feedback was
     solicited from this group and the training design is being finalized.

     In fiscal year 2008, the SEC plans to implement the new system with all executives and
     managers. In fiscal year 2009, it is anticipated that all SEC employees will be covered by
     the new system.

D.   IG Recommendations Concerning Use of Funds

     None.




                                                2

E. 	 Reports with No Management Decisions

    Management decisions have been made on all audits issued prior to the beginning of the
    reporting period (April 1, 2007).

F. 	 Revised Management Decisions

    No management decisions were revised during the reporting period.




                                             3

SEC Management Response to
Semiannual IG Report
April 1, 2007 – September 30, 2007


                                          SECTION II

                                        Disallowed Costs                                 

                                    As of September 30, 2007 



                                                                        Dollar Value
                                                           Number       (in thousands)

A. 	   For which final action has
       not been taken by the
       commencement of the
       reporting period                                     0                  $0

B. 	   On which management decisions
       were made during the reporting
       period                                               0                  $0

       (Subtotal A+B)        	                              0                  $0

C. 	   For which final action was
       taken during the reporting
       period                                               0                  $0

       (i)    Recovered by management            	          0                  $0

       (ii)   Disallowed by management                      0       	          $0

D. 	   For which no final action has
       been taken by the end of the
       reporting period                                     0                  $0




                                               4

SEC Management Response to
Semiannual IG Report
April 1, 2007 – September 30, 2007


                                           SECTION III                              

                                      Funds Put to Better Use 

                                     As of September 30, 2007 



                                                                   Dollar Value
                                                          Number   (in thousands)

A. 	   For which final action has
       not been taken by the
       commencement of the
       reporting period                                     0             $0

B. 	   On which management decisions
       were made during the reporting
       period                                               0             $0

C. 	   For which final action was
       taken during the reporting
       period:

       (i) 	    Dollar value of recom
                mendations that were
                agreed to by management                     0             $0

       (ii) 	   Dollar value of recom
                mendations that management
                has subsequently concluded
                should/could not be
                implemented or completed                    0             $0

D. 	   For which no final action has been
       taken by the end of the reporting period             0             $0




                                                  5

                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           April 1, 2007 – September 30, 2007

                                                         SECTION IV

                                             Open Audit Reports Over One Year Old 

                                                   As of September 30, 2007 



                                                  Funds Put to
                                                  Better Use            Questioned Costs
Audit #   Audit Title               Issued        (in thousands)         (in thousands)    Reason Final Action Not Taken

220 	     IRM Planning and
          Execution                 3/26/1996        $0                       $0           Efforts are underway to complete the IT
                                                                                           Policy Library, a web-based tool that
                                                                                           contains IT-related policies and guidance.
                                                                                           The target completion date is March 31,
                                                                                           2008.

320 	     General Computer Controls 12/26/2000       $0                       $0           The overall recommendation is centered
                                                                                           around the on-boarding and off-boarding
                                                                                           of staff and contractors. A pilot system
                                                                                           is in production, and full deployment is
                                                                                           being coordinated with the HSPD-12
                                                                                           government-wide initiative. In addition,
                                                                                           revisions have been made to the SEC’s
                                                                                           systems security plans to address this
                                                                                           requirement, as well as other NIST security
                                                                                           standards, at the application level.

                                                                   6

                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           April 1, 2007 – September 30, 2007

                                                         SECTION IV

                                             Open Audit Reports Over One Year Old 

                                                   As of September 30, 2007 



                                                  Funds Put to
                                                  Better Use            Questioned Costs
Audit #   Audit Title               Issued        (in thousands)        (in thousands)         Reason Final Action Not Taken

337       	IT Project Management    1/24/2002        $0                       $0               Formal policies are being completed.

365	      IT Capital Investment
          Decision-making Follow-up 3/29/2004        $0                       $0               During the reporting period, a formal
                                                                                               charter was issued for the IT Capital
                                                                                               Planning Committee, which
                                                                                               makes final investment funding decisions
                                                                                               based on, among other things,
                                                                                                recommendations from the
                                                                                               SEC’s Information Officers’ Council
                                                                                               (IOC). A formal charter is now being
                                                                                               developed for the IOC.

376       	Telephone Card Program   11/17/2003       $0                       $0               See explanation for audit #220.




                                                                   7

                                                                                                  SEC Management Response to
                                                                                                  Semiannual IG Report
                                                                                                  April 1, 2007 – September 30, 2007


                                                                SECTION IV

                                                    Open Audit Reports Over One Year Old 

                                                          As of September 30, 2007 



                                                      Funds Put to
                                                      Better Use            Questioned Costs
Audit #   Audit Title                   Issued        (in thousands)         (in thousands)     Reason Final Action Not Taken

377	      Lost and Stolen
          Securities Program            3/31/2004         $0                      $0            Management has scheduled a full
                                                                                                risk assessment of the program’s database.

393       	Software Management          3/24/2005         $0                      $0            A working group has been established to
                                                                                                develop specific procedures and policies
                                                                                                recommended by this audit. In the
                                                                                                meantime, an interim policy has been
                                                                                                issued.

395	      Integrity Program—
          Inspection of Field Offices   5/31/2005         $0                      $0            Revisions are expected to be made to 

                                                                                                the draft employee handbook. 




                                                                                               SEC Management Response to
                                                                       8

                                                                                          Semiannual IG Report
                                                                                          April 1, 2007 – September 30, 2007

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2007


                                                  Funds Put to
                                                  Better Use           Questioned Costs
Audit #   Audit Title                             (in thousands)        (in thousands)     Reason Final Action Not Taken

402       Office of the Secretary    9/20/2005       $0                      $0            Staff is analyzing data from a needs
                                                                                           assessment completed during the reporting
                                                                                           period to help determine how to meet the
                                                                                           OIG’s audit recommendations. In addition,
                                                                                           a policy is being developed to address the
                     Issued                                                                updating and posting of public forms on the
                                                                                           SEC’s website.

406       Federal Information
           Security Management
           Act—2005                                  $0                      $0            Most of the recommendations have been
                                                                                           implemented. With regard to the one
                                                                                           remaining recommendation, Privacy Impact
                                                                                           Assessments are underway for all
                                                                                           applications with an expected completion
                         9/28/2005                                                         date of March 2008.



                                                                   9
                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           April 1, 2007 – September 30, 2007

                                                        SECTION IV

                                            Open Audit Reports Over One Year Old 

                                                  As of September 30, 2007 



                                                 Funds Put to
                                                 Better Use             Questioned Costs
Audit #   Audit Title              Issued        (in thousands)           (in thousands)    Reason Final Action Not Taken

408       IM Exemptive 

          Application Processing   9/29/2006        $0                        $0 
          Work is underway to determine whether
                                                                                            and how the Commission’s rule pertaining
                                                                                            to employee securities companies should
                                                                                            be updated.

412       Oversight of PCAOB       9/28/2006        $0                        $0            A number of procedures will need to be
                                                                                            developed as the Commission’s oversight
                                                                                            of the PCAOB matures. The staff has
                                                                                            begun developing procedures by drafting a
                                                                                            proposed rule on the PCAOB’s budget
                                                                                            approval process.




                                                                  10

                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         April 1, 2007 – September 30, 2007

                                                       SECTION IV
                                           Open Audit Reports Over One Year Old
                                                 As of September 30, 2007


                                                Funds Put to
                                                Better Use            Questioned Costs
Audit #   Audit Title                           (in thousands)          (in thousands)    Reason Final Action Not Taken

425       FISMA 2006                               $0                       $0            Remaining actions evolve around
                                                                                          evaluating the reclassification of the
                                                                                          inventory of applications, improving the
                                                                                          processes for documenting applications
                                                                                          and systems, and conducting Privacy
                    Issued                                                                Impact Assessments for the full inventory
                        9/18/2006
                                                                                          of systems and applications.

PI-6-17   Workplace Violence
          Prevention Program                       $0                       $0            An updated policy is being drafted.
                                                                                          After the policy is approved and
                                                                                          communicated to staff, training
                               3/27/2006                                                  sessions will commence.




                                                                 11
                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                   As of September 30, 2007


                                                  Funds Put to
                                                  Better Use             Questioned Costs
Audit #   Audit Title               Issued        (in thousands)           (in thousands)   Reason Final Action Not Taken

M27       NRSI Password
           Management                                $0                        $0           The streamlining and automation of SEC’s
                                                                                            process for requesting, validating, granting,
                                                                                            and revoking user access to the agency’s
                                                                                            IT systems is being addressed by the
                                                                                            Federal Identity Management project.
                        1/29/2003




                                                                   12

                                                                     APPENDIX A


                        Government Accountability Office Audit Activity

                       Involving the Securities and Exchange Commission 



Reports Issued During the Reporting Period

Internal Control: Improvements Needed in SEC’s Accounting and Operational Procedures,
GAO-07-482R, Apr. 3, 2007

Financial Regulators: Agencies Have Implemented Key Performance Management
Practices, but Opportunities for Improvement Exist, GAO-07-678, June 2007

Defined Benefit Pensions: Conflicts of Interest Involving High Risk or Terminated Plans
Pose Enforcement Challenges, GAO-07-703, June 2007

Credit Derivatives: Confirmation Backlogs Increased Dealers’ Operational Risks, but Were
Successfully Addressed after Joint Regulatory Action, GAO-07-716, June 2007

Corporate Shareholder Meetings: Issues Relating to Firms that Advise Institutional Investors
on Proxy Voting, GAO-07-765, June 2007

Securities and Exchange Commission: Additional Actions Needed to Ensure Planned
Improvements Address Limitations in Enforcement Division Operations, GAO-07-830, Aug.
2007

Securities and Exchange Commission: Steps Being Taken to Make Examination Program
More Risk-Based and Transparent, GAO-07-1053, Aug. 2007


Projects Active as of September 30, 2007

   1.	 Federal Entity Governance Structures (194737). A review of the governance
       structure at designated federal entities and the inspector general’s role and reporting
       relationship with the governance structures.

   2.	 IRAs (130799). A review of the role and effectiveness of IRAs in facilitating
       retirement savings.

   3.	 Private Equity Markets (250358). A review of private equity markets and the
       current state of supervision and regulation.

   4.	 U.S. Pension Plan Investment in Hedge Funds (130664). A review focused on the
       extent public and private sector pension plan sponsors invest in hedge funds and the
       net returns of these funds relative to other types of investments.
5.	 Currency Transaction Reports (250329). A study of the currency transaction report
    filing patterns of depository institutions, the regulatory burden, if any for
    depository institutions in meeting filing requirements, how currency transaction
    reports have been useful to law enforcement and other users, and the options, if
    any, that exist for changing currency requirements.

6.	 Home Mortgage Foreclosures (250347). A review of recent trends in home
    mortgage foreclosures, the primary and secondary mortgage markets, and possible
    options for mortgage market participants, financial regulators, and policymakers in
    responding to recent foreclosure trends.

7.	 SEC Oversight of SROs (250326). A review of the SEC’s oversight of self-
    regulatory organizations and its inspection and examination process.

8.	 Institution Diversity and Consolidation (250328). A study regarding the diversity
    and complexity of the banking and financial services industries, the current
    regulatory structure for these industries, and the costs associated with regulatory
    compliance.

9.	 Competition in the Accounting Profession (250321). An examination of recent
    changes in the market for public company auditors, recent changes in the level of
    competition in the market and auditor choices for public companies, trends in audit
    costs and quality, the impact of concerns over access to capital formation and
    securities markets on companies’ choice of auditors, and challenges faced by mid-
    sized and smaller auditing firms in serving the market for audit and other services
    to public companies.

10. Hedge Funds and SEC Oversight (250313). A review of the evolution of the hedge
    fund industry in terms of growth, investment strategies and fee structures; SEC
    oversight of hedge funds and financial regulators’ oversight of counterparties;
    disclosure requirements; potential implications of ERISA amendments related to
    hedge funds; and the applicability of legislative reforms suggested by the
    President’s Working Group after Long-Term Capital Management.

11. SEC Oversight of Corporate Governance Ratings (250312). A review of the SEC’s
    oversight of firms that provide proxy advisory services and corporate governance
    ratings.

12. Credit Derivatives (250310). A review of the use of information technology
    systems in the credit derivatives markets.

13. Financial Markets Preparation Follow-on (250285). A review of the progress made
    by U.S. financial regulators and market participants to increase their security and


                                         2

   resiliency against attacks or other disasters, as well as to follow-up on issues and
   recommendations made from GAO’s prior reports.

14. Financial Statement Audit (194571). An audit of the SEC’s 2006 financial
    statements.

15. Utility Oversight (360719). A study of FERC’s efforts to assume responsibilities
    for protecting consumers and investors previously under the jurisdiction of the
    SEC.

16. Energy Futures (250256) and Natural Gas Prices (360659). The first assignment is
    a review of the CFTC’s oversight of futures trading in energy. The second
    assignment is a review of the factors that affect natural gas price volatility and the
    Federal Government’s role in ensuring that prices are determined in a competitive
    market. GAO’s discussions with SEC concern the SEC’s equities market
    surveillance, staff report entitled, “Implications of the Growth of Hedge Funds in
    September 2003,” and how the role played by hedge funds in the financial markets
    has changed.




                                          3

